  REVIEW OF GSA’S COMPETITIVE
      SOURCING INITIATIVE

REPORT NUMBER A050260/O/F/F06019

       SEPTEMBER 29, 2006
               Review of GSA’s Competitive Sourcing (A-76) Initiative

                             Report Number A050260/O/F/F06019


                                       TABLE OF CONTENTS

EXECUTIVE SUMMARY ......................................................................................1
BACKGROUND ....................................................................................................3
OBJECTIVES, SCOPE, AND METHODOLOGY ..................................................4
RESULTS OF REVIEW ........................................................................................5
RECOMMENDATIONS.........................................................................................8
MANAGEMENT RESPONSE ...............................................................................9
INTERNAL CONTROLS .......................................................................................9
                             EXECUTIVE SUMMARY

Purpose

This review focused on determining whether GSA is effectively and efficiently
implementing the Competitive Sourcing initiative as outlined in the Office of
Management and Budget’s (OMB) Circular No. A-76 (A-76) and the President’s
Management Agenda (PMA).

Background

Competitive sourcing is based on the belief that competition between federal
agencies and the private sector is necessary to determine who is best able to
perform commercial activities to ensure the best value for Americans’ tax dollars.
The PMA, enacted in 2001, requires agencies to explore competitive sourcing as
a means to make government more efficient.

GSA currently maintains a score of “Green” for Competitive Sourcing on the PMA
Scorecard for both Current Status and Progress in Implementing the PMA. GSA
achieved this status, in part, through the performance of competitions and the
development of the GSA Green Plan.

Results-in-Brief

Although GSA is currently achieving the goals of the PMA, there are areas of
concern which may have a negative impact on GSA’s ability to continue effective
and efficient implementation of the provisions of the PMA and OMB’s A-76
Circular. These areas may place GSA in jeopardy of losing its “Green” status on
the PMA scorecard. Our first concern is that the Competitive Sourcing Initiative
focus will shift from GSA’s Public Buildings Service (PBS) to the rest of the
agency, resulting in the loss of a significant amount of knowledge and experience
regarding the competitive sourcing process. Adding to this, the reorganization of
the Federal Technology Service (FTS) and the Federal Supply Service (FSS) into
the Federal Acquisition Service (FAS) may have a negative impact on scheduled
competitions. Also, GSA has yet to post and share lessons learned from the
competitive sourcing process as required by A-76. Lastly, GSA is scheduled to
re-compete a canceled agency-wide Marketing function but has not yet
addressed the problems and issues arising from the previous cancellation.

Recommendations

We recommend that GSA’s Office of Performance Improvement take the
following steps to help ensure that GSA continues to effectively and efficiently
implement the provisions of the PMA and A-76:



                                         1
•   For upcoming competitions, ensure that PBS officials from completed
    competitions actively participate throughout the process to ensure their
    experiences and knowledge gained from prior competitions is carried
    forward.

•   Examine the potential impact of the FSS/FTS reorganization on the
    scheduled competitions to determine whether to proceed with the
    competitions and examine alternative areas for competition where
    necessary.

•   Post lessons learned from both streamlined and standard competitions to
    the SHARE A-76! website in order to comply with the provisions of A-76.

•   Review the lessons learned compiled by the contractor and PWS team to
    avoid the inefficiencies of the cancelled marketing competition.




                                     2
                                 BACKGROUND

The PMA is a starting point for management reform and contains six
government-wide goals for improving federal management. These goals are:

   •   Strategic Management of Human Capital

   •   Budget and Performance Integration

   •   Competitive Sourcing

   •   Expanded E-Government

   •   Improved Financial Performance

   •   Federal Real Property Asset Management

The third goal requires agencies to explore competitive sourcing as a means to
make government more efficient. Competitive sourcing is based on the belief
that competition between federal agencies and the private sector is necessary to
determine who is best able to perform commercial activities to ensure the best
value for Americans’ tax dollars. Guidance for public-private competitions is
provided by OMB Circular A-76.

Competitive sourcing requires federal agencies to identify commercial activities
that are performed in-house and are suitable for a public-private cost
comparison. A commercial activity is a recurring service that could be performed
by the private sector. On the other hand, an Inherently Governmental activity is
an activity that is so intimately related to the public interest as to mandate
performance by Government personnel. These activities normally fall into two
categories: the exercise of sovereign government authority or the establishment
of procedures and processes related to the oversight of monetary transactions or
entitlements. GSA has taken steps to improve agency-wide consistency in
defining job functions and performing competitions. GSA has fully implemented
the FAIR Act Inventory Tool (FIT), which will help the agency to consistently code
jobs functions as either Inherently Governmental or Commercial Activities
throughout the Regions.

Circular A-76 provides guidance for conducting standard and streamlined
competitions in support of the competitive sourcing process. A standard
competition compares competitive bids from the in-house group, private sector,
and public reimbursable providers to determine if it is better for the government
to retain a particular activity in-house or contract out that activity. As part of a
standard competition the in-house group develops a “Most Efficient Organization”
(MEO), a staffing plan developed by the agency to represent the most efficient


                                         3
and cost effective organization, to compete against private sector bids and public
reimbursable providers. Although a standard competition can involve any
number of Full Time Equivalents (FTEs), it is an OMB requirement for those with
65 or more FTEs and is to be completed within 12 months.

Streamlined competitions may examine activities that are commonly contracted
and use existing federal contracts or solicit private sector bids to determine a fair
and reasonable cost for performing a particular activity. A source selection team
evaluates all the proposals to select the best value, considering technical merit,
cost, and past performance. Streamlined competitions can be performed on
activities comprised of 65 or fewer FTE and are required to be completed within
90 to 135 days, depending on whether an MEO was created.

GSA currently maintains a score of “Green” for Competitive Sourcing on the PMA
Scorecard for both Current Status and Progress in Implementing the PMA. The
PMA employs a stoplight scoring system in which a score of Green represents
success, Yellow represents mixed results, and Red represents unsatisfactory
results. GSA achieved its status through the performance of competitions and
the development of the GSA Green Plan. GSA’s Green Plan outlines the
competitions scheduled to be performed by each Service and Staff Office
through Fiscal Year 2008.

Between Fiscal Years 2003 and 2005, GSA completed 71 competitions.
According to competitive sourcing data submitted to OMB by GSA, these
competitions have resulted in a total estimated savings for GSA of $156,676,000.
During this time period, standard competitions accounted for only 2 of the 71
competitions held.

GSA’s Office of Performance Improvement (OPI) is responsible for assisting in
the development and implementation of the agency’s competitive sourcing
program. OPI centrally manages the program while the GSA Competitive
Sourcing Executive Committee develops agency-wide strategic approaches
regarding competitive sourcing. Although OMB provides guidance (OMB Circular
No. A-76 and other administrative requirements) for competitive sourcing, final
implementation decisions are the responsibility of the agency.

                 OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of our audit is to answer the following questions:

   •   How effectively is GSA implementing the provisions of the competitive
       sourcing initiative?

   •   What plans are in place to ensure that GSA continues to achieve a
       successful status on the PMA scorecard?




                                          4
   •   Does GSA effectively identify the most efficient means to accomplish
       tasks?

   •   How has GSA identified effective methods and processes for promoting
       and achieving continuous improvement and removing roadblocks to
       greater efficiency?

To accomplish our objectives, we:

   •   Interviewed OPI staff and members of the Executive and Competitive
       Sourcing Working Group (Working Group) Committees.

   •   Obtained and reviewed competitive sourcing guidance.

   •   Obtained and reviewed results and documentation for a sample of
       completed competitions and GSA’s future plans for competitions.

   •   Compared GSA’s competition results with those of other Federal
       agencies.

   •   Tested data transmitted to OMB for reasonableness.

The review was conducted between September 2005 and March 2006 and was
performed in accordance with generally accepted government auditing
standards.

                            RESULTS OF REVIEW

In general, GSA has been successful in communicating the objectives of
competitive sourcing to GSA associates. The GSA Administrator has issued
several memos to associates stressing the importance of the competitive
sourcing initiative and the current status of ongoing competitions. In June 2004,
GSA issued a Competitive Sourcing Program Management Guide. The Program
Management Guide is provided as a resource to those individuals within GSA
who are participating in, or are involved with, a competitive sourcing competition
under A-76. The guide provides an outline for successful project planning and
describes the roles and responsibilities of the primary participants in competitive
sourcing activities.

OPI has established an agency-wide training program that will promote
consistency in performing competitions and inform the participants of their roles
and responsibilities in the competitive sourcing process. Additionally, GSA has



                                        5
created a Working Group in which members discuss current competitive
sourcing issues and act as liaisons to their respective offices.

OMB has recognized GSA’s efforts in competitive sourcing through GSA’s Green
status on the PMA Scorecard. In our opinion, however, GSA may need to
address several potential problems in the near future in order to maintain its
Green status and meet the competitive sourcing requirements of OMB.

Based on our review of GSA’s competitive sourcing process, we found that:

      GSA may face challenges in maintaining its PMA score resulting from 1)
       the loss of knowledge of the competitive sourcing process due to the shift
       in focus from PBS to the rest of GSA and 2) the reorganization of FTS
       and FSS into FAS;

      GSA has not posted lessons learned and best practices to the A-76
       Share! Website as required by OMB Circular No. A-76; and

      GSA is proceeding with the re-competition of the previously canceled
       agency-wide marketing function without addressing the issues arising
       from the previous cancellation.

Continuation of GSA’s “Green” Status

Future A-76 competitions will include more standard competitions, which may
increase the complexity of the process. Coupled with the loss of first-hand
knowledge and experience of the competitive sourcing process as the focus
shifts from PBS to the rest of the agency, GSA’s ability to maintain its current
“Green” status on the PMA scorecard may be hindered. Between Fiscal Years
2004 and 2005, PBS performed 53 of the 54 completed competitions, all of
which were streamlined. PBS performed the competitions as a part of its
business plan and is now completing their scheduled competitions. As PBS
finishes the last of their competitions, the responsibility for continuing the
competitive sourcing initiative will transfer to the rest of GSA. One of the
requirements of a “Green” status on the PMA is that the competitions be
performed within the prescribed timeframe. We believe that without the
knowledge and experience of the individuals who have been participating in the
PBS competitions, GSA may encounter difficulties in meeting the timing
requirements. To further complicate the matter, GSA is currently in the process
of merging FTS and FSS into FAS and received approval to offer early outs and
buyouts to nearly 400 employees. This would mean that positions that had been
scheduled to compete may be eliminated, possibly leading to the cancellation of
some competitions which would have an adverse effect on GSA’s PMA




                                        6
scorecard. Management has expressed doubt as to whether GSA will be able to
maintain its current PMA status in this environment.

Failure to Develop and Share Lessons Learned from Completed
Competitions

GSA, to date, has not posted lessons learned or best practices derived from
competitions to the SHARE A-76! website. The provisions of A-76 Attachment B
require that “Agencies shall post best practices and lessons learned resulting
from streamlined or standard competition process on SHARE A-76!” website.
The act of posting to the SHARE A-76! website would force GSA to formally
collect and review lessons learned. The fact that GSA does not develop or share
lessons learned may mean that potential methods for achieving a more efficient
competitive sourcing process and continuous improvement of the process are not
being utilized or put into practice.

As part of our review, we accessed the SHARE A-76! website and were unable
to find any entries posted relating to lessons learned. According to a GSA
official, GSA had not developed or posted any official lessons learned from
completed competitions. The official stated that because most of the
competitions had been streamlined and were similar in nature, they felt that their
lessons learned would be insignificant and would not be helpful to others. In our
opinion, whether streamlined or standard, each competition performed yields
best practices and lessons learned and should be shared and posted as required
by OMB guidance.

As part of the competitive sourcing program, GSA has created a Competitive
Sourcing Working Group comprised of members from various Services and Staff
Offices. The members review OMB guidance relating to the FAIR Act Inventory,
make recommendations to the Executive Committee regarding policy issues, and
act as liaisons to their respective offices. In our opinion, the Working Group is a
valuable resource of information regarding best practices and lessons learned
relating to GSA’s Competitive Sourcing Initiative. Lessons learned developed by
the Working Group could be utilized by competition officials throughout GSA and
should be posted to the SHARE A-76! website. According to the GSA
Competitive Sourcing Program Management Guide, the Working Group is tasked
with making recommendations to the Competitive Sourcing Executive Committee
on policy issues. Therefore, the lessons learned and best practices resulting from
the Working Group meetings should be passed on to the Competitive Sourcing
Executive Committee for management review and possible inclusion onto the
SHARE A-76! website.

Re-competing the Previously Canceled Marketing Function

GSA is planning to re-compete the GSA-wide marketing function without
considering the issues arising from its prior cancellation. According to the GSA


                                        7
Competitive Sourcing Green Plan, the agency plans to announce in Fiscal Year
2008, the re-competition of GSA’s agency-wide marketing function. The original
GSA-Wide marketing competition was announced in Fiscal Year 2004 and was
canceled in part due to the FTS and FSS merger. However, there are additional
issues that surfaced from the cancellation of the competition. These additional
issues include the lack of a pre-existing agency-wide marketing function, and
issues in preliminary planning and the MEO Team structure as cited by the
contractor hired to support the marketing competition.

At the time of the announcement for the initial marketing competition, an agency-
wide marketing function did not exist at GSA. Marketing functions did exist within
individual Services and Staff Offices but not on an agency-wide scale. According
to the Performance Work Statement (PWS) team, “The marketing function was
selected by GSA for competitive sourcing partly because of an apparent desire to
strategically improve the function from the enterprise-wide viewpoint. However,
very little enterprise-wide marketing functions actually exist. Services and Staff
Offices view marketing markedly different with little agreement on definitions and
basic concepts. As a result, the centralized marketing functions that were being
competed did not actually exist within GSA, nor were they understood. Using
competitive sourcing as a tool to attempt to create a centralized marketing
function was neither ideal nor effective from the organizational or competitive
sourcing standpoint.”

The contractor hired to support the marketing competition and the PWS team,
who is responsible for identifying the technical, functional, and performance
characteristics of the agency’s requirements, both cited lack of preliminary
planning as a major impediment to the successful completion of the marketing
competition. The lack of pre-planning caused delays and frustration in the
competition process. A biddable PWS was not developed due to the failure to
adequately complete the task definition, develop baseline data, identify in-scope
personnel, and a lack of a budget estimate and funding mechanism. The
contractor noted in their lessons learned that the structure of the MEO Team was
another contributing factor to the cancellation of the marketing competition. The
contractor believes that an MEO Team of three to five members is ideal for a
competition. During the marketing competition, however, the MEO Team
consisted of ten GSA managers. The contractor also recommended that the
MEO team consist of individuals with enough authority within the organization to
empower them to make critical strategic decisions for the agency.

To date, GSA has not addressed the factors arising from the marketing
competition. We believe it is in GSA’s best interest to consider these issues
before proceeding with the re-competition of the marketing function. Due to the
size of the proposed marketing competition, its cancellation could potentially lead
to a lower score on the PMA scorecard.




                                         8
                            RECOMMENDATIONS

Based on our review, we recommend OPI take the following actions:

   1) For upcoming competitions, ensure that PBS officials from completed
      competitions actively participate throughout the process to ensure their
      experience and knowledge gained from prior competitions is carried
      forward.

   2) Propose that GSA’s Executive Committee examine the potential impact of
      the FSS/FTS reorganization on the scheduled competitions to determine
      whether to proceed with the competitions. If the Executive Committee
      determines that the reorganization would have a negative impact on the
      scheduled competitions, the Committee should examine alternative areas
      for competition.

   3) Post lessons learned from both streamlined and standard competitions to
      the SHARE A-76! website in order to comply with the provisions of OMB
      Circular No. A-76.

   4) Review the lessons learned compiled by the contractor and PWS team to
      avoid the inefficiencies in re-competing the GSA marketing function.

                         MANAGEMENT RESPONSE

We met with a representative from the Office of Performance Improvement (OPI)
to obtain feedback on a discussion draft of our report. Written comments
provided by OPI have been included in Appendix A.

                            INTERNAL CONTROLS

As outlined in our Objectives, Scope, and Methodology section above, our review
did not require, nor did we perform, a review of internal controls.




                                        9
                     REVIEW OF GSA’S COMPETITIVE
                         SOURCING INITIATIVE

                  REPORT NUMBER A050260/O/F/F06019

                           SEPTEMBER 29, 2006




REPORT DISTRIBUTION                                  COPIES

Acting Associate Administrator, Office
      Of Performance Improvement (R)                   3

Audit Follow-Up and Evaluation Branch (BECA)           1

Assistant Inspector General for Auditing (JA)          1

Audit Operations Staff Office (JAO)                    1

Assistant Inspector General for Investigation (JI)     1




                                      10
